No. 19-277
lNTHE

$,Upreme QI:ourt of tbe mlniteb $)tates
HSBC HOLDINGS PLC,

et al. ,
Petitioners ,

V.

IRV1NG H. PICARD AND
SECURITIES INVESTOR PROTECTION CORPORATION,

Respondents.
On Petition For A Writ Of Certiorari To The United
States Court Of Appeals For The Second Circuit

CERTIFICATE OF COMPLIANCE
As required by Rule 33. l(h), I, Joshua S. Bolian,
a member of the Bar of this Court, hereby certify
that the Brief in Opposition for Respondent Irving H.
Picard contains 8,977 words, excluding the parts of
the brief that are exempted by Rule 33. l(d).
I declare under penalty of perjury that the
foregoing is true and correct.

Joshua S. Bolian
October 30, 2019

